No. 19-123

Bu The
Supreme Court of the United States

 

 

SHARONELL FULTON, ET AL.,

Petitioners,
v.

CITY OF PHILADELPHIA, ET AL.,

Respondents.

 

CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 33.1(h), hereby certifies that the Amicus Brief of Life Legal, et al., in Support of Petitioners
complies with the pertinent word limitations. The body of the document, including footnotes
(but exclusive of all material preceding the Interest of Amici and all material following the last
word of the text of the conclusion), contains 5,176 words.

 

June 3, 2020

 
